TN

C@OCKLE

; E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
TRISTA OETTLE,
Petitioner,

v.
WILLIAM J. CADIGAN, in his official capacity as
Chairman of the Illinois State Board of Elections, and
THE PEOPLE OF THE STATE OF ILLINOIS,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 3601 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of June, 2021.
| am duly authorized under the laws of the State of Nebraska to administer oaths.

mr Kerse. 0. Lisa Ondene bh Ole

My Comm. Exp. September 5, 2023
Affiant

 

Notary Public 41005
